No. 19-

IN THE

Ouprente Court of tjje Ettiteb eptateo
CLYDE S. BOVAT,
Petitioner,
v.
STATE OF VERMONT,
Respondent.

On Petition for a Writ of Certiorari to the
Supreme Court of Vermont

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,386 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 18, 2020.

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

